Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Methamphetamine Initiative Grants Administered by the Kansas Bureau of InvestigationTopeka, Kansas

Report No. GR-60-04-006


March 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Methamphetamine Initiative grants awarded by the Office of Community Oriented Policing Services (COPS Office) to the Kansas Bureau of Investigation (KBI). The purpose of these grants is to assist state and local law enforcement agencies in reducing the production, distribution, and use of methamphetamine. The KBI was awarded two grants, totaling $2,495,600, to purchase supplies and equipment and to hire additional staff (six special agents, two crime analysts, three full-time forensic scientists, two part-time forensic scientists, and one office assistant).
We tested KBI's compliance with grant requirements in four areas - reporting, drawdowns, budget management and control, and expenditures. While we found KBI to be compliant with grant reporting requirements, we found noncompliance issues in the areas of grant drawdowns, grant budget management and control, and grant expenditures. As a result, we questioned costs totaling $198,874.1 Specifically, we found:

Grant funds drawn down were not always expended within the required 10-day period.


Transfers among cost categories exceeded 10 percent of the approved grant budget without prior approval of the COPS Office, resulting in questioned costs of $46,451.


Salaries paid for eight grant-funded positions exceeded the amounts that were approved by the COPS Office, resulting in questioned costs of $19,789.


Two existing KBI employees were transferred to grant-funded positions but their vacated positions were not backfilled, resulting in questioned costs of $132,634.

Our report contains 11 recommendations to address the preceding issues, which are discussed in detail in the Findings and Recommendations section of the report. Our audit objective, scope and methodology appear in Appendix I of the report.
We discussed the results of our audit with KBI officials and have included their comments in the report as applicable.


Footnotes

The Inspector General Act of 1978 contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix III for a breakdown of our dollar-related findings and the definition of questioned costs.